<html>
<title> - HEARING ON NICARAGUAN CRISIS: NEXT STEPS TO ADVANCING DEMOCRACY AND MARKUP ON H. RES. 981, CONDEMNING THE VIOLENCE, PERSECUTION, INTIMIDATION, AND MURDERS COMMITTED BY THE GOVERNMENT OF NICARAGUA AGAINST ITS CITIZENS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








         HEARING ON NICARAGUAN CRISIS: NEXT STEPS TO ADVANCING
            DEMOCRACY AND MARKUP ON H. RES. 981, CONDEMNING
              THE VIOLENCE, PERSECUTION, INTIMIDATION, AND
            MURDERS COMMITTED BY THE GOVERNMENT OF NICARAGUA
                          AGAINST ITS CITIZENS

=======================================================================

                           HEARING AND MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2018

                               __________

                           Serial No. 115-160

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 
                      or http://www.gpo.gov/fdsys/
                                 ______
	 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
30-709PDF                WASHINGTON : 2018                 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                     COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere


                    PAUL COOK, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MO BROOKS, Alabama                   NORMA J. TORRES, California
RON DeSANTIS, Florida                ADRIANO ESPAILLAT, New York
TED S. YOHO, Florida                 GREGORY W. MEEKS, New York
FRANCIS ROONEY, Florida




























                            C O N T E N T S

                              ----------                              
                                                                   Page

                           HEARING WITNESSES

The Honorable Carlos Trujillo, U.S. Permanent Representative, 
  Organization of American States................................    10
The Honorable Michael Kozak, Senior Advisor and Senior Bureau 
  Official, Bureau of Democracy, Human Rights, and Labor, U.S. 
  Department of State............................................    19
Ms. Barbara Feinstein, Deputy Assistant Administrator, Bureau for 
  Latin America and the Caribbean, U.S. Agency for International 
  Development....................................................    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Paul Cook, a Representative in Congress from the 
  State of California, and chairman, Subcommittee on the Western 
  Hemisphere: Prepared statement.................................     4
The Honorable Carlos Trujillo: Prepared statement................    13
The Honorable Michael Kozak: Prepared statement..................    21
Ms. Barbara Feinstein: Prepared statement........................    28

                               MARKUP ON

H. Res. 981, Condemning the violence, persecution, intimidation, 
  and murders committed by the Government of Nicaragua against 
  its citizens...................................................    47

                                APPENDIX

Hearing/markup notice............................................    56
Hearing and markup minutes.......................................    57
Markup summary...................................................    59
The Honorable Paul Cook: Questions submitted for the hearing 
  record to all witnesses........................................    60 
 
              HEARING ON NICARAGUAN CRISIS: NEXT STEPS TO 
             ADVANCING DEMOCRACY AND MARKUP ON H. RES. 981, 
                 CONDEMNING THE VIOLENCE, PERSECUTION, 
               INTIMIDATION, AND MURDERS COMMITTED BY THE 
              GOVERNMENT OF NICARAGUA AGAINST ITS CITIZENS

                              ----------                              


                        THURSDAY, JULY 12, 2018

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2172, Rayburn House Office Building, Hon. Paul Cook 
(chairman of the subcommittee) presiding.
    Mr. Cook. A quorum being present, the subcommittee will 
come to order.
    I would like to now recognize myself for an opening 
statement.
    For too long, Daniel Ortega has ruled Nicaragua through 
fear and intimidation, undermined democracy, and enriched 
himself through systemic corruption. Today, hundreds of 
thousands of Nicaraguans from all sectors of society have said 
no more.
    In response, over the last 2 months, Ortega has fought to 
maintain his control, unleashing his security forces on unarmed 
citizens and violently suppressing the protests in which he has 
left close to 300 people dead, including one U.S. citizen.
    The crisis in Nicaragua is also threatening regional trade, 
business operations, and the safety of Americans living in 
Nicaragua. Attempts by the Catholic Church to mediate a 
peaceful solution to the conflict have failed. Ortega continues 
to suppress the people, and Ortega announced over the weekend 
that he will not hold early elections as many protesters had 
urged.
    Just this weekend, masked government supporters attacked 
Roman Catholic priests who were seeking to help protesters 
trapped inside a church.
    Yesterday, Felix Maradiaga, the executive director for a 
leading think tank in Nicaragua, an important pro-democracy 
advocate, was attacked and physically beaten by Ortega's thugs 
in Leon. I believe his wife is in the audience today. In fact, 
I just met her. I complimented her husband and herself on her 
courage.
    And most of all, I wish your husband a speedy recovery, and 
thank you very, very much for being here. I just want to say 
the U.S. stands in support and solidarity with you and the 
Nicaraguan people who are seeking to reclaim their freedoms.
    While some have expressed surprise by the outbreak and 
violence in what was previously known as the most stable 
country in Central America, this crisis did not occur 
overnight. In my view, it is the result of more than a decade 
of Ortega's authoritarian rule and built-up resentment from the 
Nicaraguan people who have seen the Ortega family enrich 
themselves at the expense of the country.
    Today, Nicaragua remains the second poorest country in the 
Western Hemisphere after Haiti, and Transparency International 
ranks Nicaragua as one of the region's most corrupt countries, 
along with Venezuela and Haiti.
    In addition, Ortega and his wife, Rosario Murillo, have 
undermined democratic institutions in Nicaragua, stacked the 
courts and electoral body with political allies, illegally 
changed the constitution, eliminated presidential term limits, 
stripped the opposition parties of their legal registration, 
dismissed the opposition lawmakers from the National Assembly, 
held fraudulent elections, and co-opted many of the country's 
television and media outlets to restrict information from 
reaching citizens.
    In view of these actions and today's crisis in Nicaragua, 
we were holding this subcommittee hearing and markup of House 
Resolution 981 to examine recent developments and conduct 
oversight of the administration's policy to Nicaragua.
    The Trump administration has rightly responded with strong 
statements condemning the Ortega regime for committing violence 
and human rights abuses. The State Department has taken 
important action to protect U.S. Embassy personnel and their 
families and issue visa restrictions on Nicaraguan Government 
officials. The Treasury Department also recently announced 
sanctions against three top Ortega officials for human rights 
abuses and corruption.
    I strongly applaud all these actions, but I want to note my 
concern over an Organization of American States, OAS, 
resolution jointly introduced by the United States and 
Nicaragua that seemed to downplay the crisis and deaths, and 
could have more strongly supported the democratic actors on the 
ground.
    The U.S. must do more. I urge the State Department and the 
Treasury Department to issue additional visa restrictions and 
Magnitsky sanctions on Ortega regime officials to send a clear 
message that the United States will not allow government 
officials who exploit Nicaraguan people or who commit human 
rights abuses to visit U.S. destinations or access the U.S. 
banking systems.
    The U.S. must also do more to support the democratic actors 
in Nicaragua. Also, U.S. funding to support the Nicaraguan 
people is strongly welcomed by this subcommittee. It is 
essential the U.S. respond to the crisis with a clear strategy 
and that we consider the needs of the actors on the ground in 
their capacity to manage money effectively to achieve results 
as we consider any additional funding.
    Finally, I strongly believe that the U.S. will be most 
effective if we work together to support the Nicaraguan people 
through, not only the Organization of American States and its 
member states, but also with the European Union, Canada, and 
the Lima Group countries to coordinate a united response to the 
Nicaraguan crisis.
    I look forward to hearing from our witnesses on how the 
Trump administration is engaging with all these different 
actors to support the Nicaraguan people.
    And with that, I turn to our Ranking Member Sires for his 
opening remarks.
    [The prepared statement of Mr. Cook follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
                              ----------                              


    Mr. Sires. Thank you, Chairman, and thank you for holding 
such a timely hearing. And thank you to our witnesses for being 
here.
    But before I begin, I would also like to recognize Berta 
Valle. Thank you for being here. I wish your husband well. I 
hope he has a speedy recovery, and tell him that we appreciate 
his courage and his determination. So thank you for being here.
    You know, as we know, Nicaragua is currently in the throes 
of a civil conflict as Ortega's government continues to oppress 
its citizens for pursuing greater democratic rights.
    Since Ortega came to power, he has gradually consolidated 
power in the hands of his family and his cronies at the expense 
of the Nicaraguan citizens.
    The peaceful protests that began in April initially opposed 
the proposed government's reform to Social Security. However, 
as violent attempts by government security forces to quash the 
protests failed, the demonstration gradually became a call for 
a more democratic Nicaragua.
    The Catholic Church attempted numerous times to mediate 
dialogue between Ortega and the opposition groups, but Ortega's 
regime has repeatedly failed to uphold its end of the 
agreement.
    Over the course of the last several months, as negotiations 
over dialogue has evolved, hundreds of Nicaraguan citizens are 
estimated to have been killed, with thousands more injured.
    Recently, international observers from the International 
Commission of Human Rights, the United Nations Commission of 
Human Rights, and European Unions have finally arrived in 
Nicaragua to begin investigating the violence, despite Ortega's 
reluctance.
    Now, many Nicaraguans are demanding political reforms and 
the resignation of Ortega and his wife before the scheduled 
elections in 2021.
    The United States cannot stand idly by and ignore the 
demands of the Nicaraguan people while the Ortegas and his 
confidantes push the country undoubtedly toward a civil war.
    That is why my colleagues, Representative Ros-Lehtinen, 
Ranking Member Engel, Chairman Cook, and I have introduced a 
bipartisan resolution condemning the ongoing violence in 
Nicaragua and urging the administration to impose sanctions on 
individuals who qualify under the Global Magnitsky Act.
    I have also worked with my friend, Ileana Ros-Lehtinen, to 
pass a Nicaraguan Investment Conditionality Act to hold the 
regime accountable for its misuse of international loans. This 
bill will direct the U.S. to not support international loans to 
Nicaragua until the government increases transparency and has 
free and fair elections.
    Unified pushback from the international community shows the 
courageous Nicaraguans on the ground that the world stands 
shoulder-to-shoulder with them. It is the only way to help 
Ortega see the writing on the wall. He has to give up his grip 
and enact long overdue and meaningful political reforms people 
are fighting for.
    I am eager to hear from the administration's view the 
potential outcomes of the Nicaraguan crisis, and look forward 
to hearing how they plan on standing up for the protesters and 
promote democratic reforms to Nicaragua moving forward.
    Thank you, Chairman, for holding this hearing.
    Mr. Cook. Thank you very much.
    My able staff always passes me notes here. And I didn't 
have my right glasses on. I thought it said IRS. And I said, I 
paid my taxes, but it was to remind me that Ileana Ros-Lehtinen 
is going to make an opening statement.
    So, Ms. IRS, you are up.
    Ms. Ros-Lehtinen. I have been called worse, but that is 
pretty low.
    But thank you so much, Mr. Chairman, thank you to Ranking 
Member Sires for putting together this very important hearing 
as the Nicaraguan people march through the streets today on a 
national strike to demand Ortega's exit from power.
    And like Albio Sires, I also have a wonderful constituent, 
Nora Sandigo, who is there in the audience.Nora, please stand 
up. And she has been such a valiant fighter for the people of 
Nicaragua and all of Central America. Mucha gracias, Nora.
    And I especially want to commend the wonderful work that 
USAID Administrator Green, who is a dear friend of this 
subcommittee, for what he has been doing to assist the people 
of Nicaragua and Venezuela. I have to say that I am relieved 
that this administration, unlike the previous administration, 
is paying close attention to the Western Hemisphere and has 
shown a willingness to lead on many fronts, including Ortega's 
escalating repression in Nicaragua.
    I have already led two letters urging sanctions on Ortega's 
cronies for their roles in corruption and human rights 
violations against the Nicaraguan people. And the 
administration has responded by including all of these 
individuals on the Global Magnitsky list, that we should build 
on that list, which is why I intend to send another letter in 
the near future with all of our colleagues here, because we 
know that these despots will do anything to cling to power, and 
they only respond to pressure.
    Ortega is the sole individual responsible for the ongoing 
violence and the rising death toll in Nicaragua today, but it 
is not something that just happened overnight. It is not like 
we didn't know what to expect when Ortega reclaimed power in 
Nicaragua.
    I came to Congress in 1989. And at that time, democracy was 
sort of looming in Nicaragua after Ortega's first reign of 
terror, which took the lives of over 100,000 Nicaraguans. Due 
to his repression, thousands of Nicaraguans had already fled 
their native homeland to seek refuge in our great country, and 
we are so proud in South Florida to have a growing Nicaraguan-
American community.
    And as a political refugee myself, just like Mr. Albio 
Sires, we fled Castro's grip on power in our native homeland of 
Cuba, so we can relate to the hardships that the Nicaraguan 
people face in a new country. So that is why, Mr. Chairman and 
Ranking Member, it pains me so much to see Nicaragua go down 
this path again.
    He has pulled off many tricks to position himself in the 
place he is now with the help of his wife and so-called vice 
president, Rosario. And you know, she is wicked. He is bad and 
she is a great partner in terror. He has been able to 
systematically weaken and dismantle democratic institutions in 
Nicaragua. What a pair.
    He and his family control every institution, every aspect 
of the country. He has co-opted and coerced the private sector. 
He has unleashed his thugs to violently crush any and all 
dissent, all of which has caused angst, frustration, despair 
among the Nicaraguan people.
    And that brings us to the tragic situation that we have 
today. In April, the Nicaraguan people said ``basta ya,'' 
enough is enough, took to the streets in opposition to Ortega 
and his corrupt policies. And in just 2 short months, almost 
400 Nicaraguans' lives, and the life of at least one U.S. 
citizen, have been taken at the bloody hands of the murderous 
Ortega regime.
    Thousands of people have been injured, hundreds 
mysteriously disappeared, while hundreds of thousands from all 
ages and all socioeconomic backgrounds continue to be 
intimated, repressed, and threatened on a daily basis.
    The violence is escalating, and the advanced technical 
weapons being used is alarming. Ortega has doubled down on his 
repressive tactics.
    In just this week, he has ruled out early elections, sent 
henchmen to fire shots near the residence of the U.S. 
Ambassador to Nicaragua. Just this week, killed more than 30 
people, sent more of his mobs to physically attack priests and 
ransack churches.
    These are not the actions of someone who wants to work in 
good faith to reach a peaceful resolution. These are not the 
actions of someone who truly wants a national dialogue. These 
are the actions of a thug who wants to stay in power no matter 
what the cost. And to that end, Ortega has expanded his 
cooperations with regimes across the region and beyond.
    Just last week, several reports indicated that Maduro had 
sent a shipment of weapons to Ortega. And there are reports 
that suggest the Cubans have shipped in their military 
personnel and snipers to Nicaragua as well. And we have known 
for years about Ortega's coziness with Putin.
    So there are a lot of alarming trends, Mr. Chairman. None 
of them good. But at least the people of Nicaragua know where 
the U.S. stands, and we stand with the people of Nicaragua.
    Thank you, Mr. Chairman. Thank you, Mr. Ranking Member.
    Mr. Cook. Thank you, Ms. IRS.
    Before I recognize you to provide your testimony, I am 
going to explain the lighting system in front of you.
    You will each have 5 minutes to present your oral 
statement. When you begin, the light will turn green. When you 
have a minute left, the light will turn yellow. And when your 
time is expired, the light will turn red.
    I ask that you conclude your testimony once the red light 
comes on. I will gently tap. Sometimes I come down hard. I 
haven't got the right glasses, and I might hit my colleague to 
the right by mistake.
    After our witnesses testify, members will have 5 minutes to 
ask questions. I urge my colleagues to stick to the 5-minute 
rule to ensure that all members get the opportunity to ask 
questions.
    Our first witness to testify will be Ambassador Carlos 
Trujillo, the U.S. Permanent Representative to the Organization 
of American States, OAS. Prior to this, the Ambassador served 
as a State representative in the Florida House, special adviser 
at the U.S. Mission to the United Nations, assistant State 
attorney in Miami, and has been a member of three real estate 
holding companies in Florida.
    He earned a BS in business administration from Spring Hill 
College and a JD from Florida State College of Law.
    Our second witness is Ambassador Michael Kozak, a senior 
adviser and senior bureau official in the Bureau of Democracy, 
Human Rights, and Labor at the U.S. Department of State. Prior 
to this, the Ambassador served in numerous senior positions in 
the executive branch, including senior director on the National 
Security Council, principal deputy assistant secretary of 
state, Ambassador in Minsk, U.S. negotiator with Cuba, special 
Presidential envoy to negotiate the departure of General 
Noriega, assistant negotiator for the Panama Canal treaties, 
and staff of the Middle East peace negotiator.
    He earned his JD and BA from the University of California 
at Berkeley.
    Our last witness to testify will be Ms. Barbara Feinstein, 
the deputy assistant administrator in the Bureau for Latin 
America and the Caribbean at the U.S. Agency for International 
aid, USAID. Prior to this, Ms. Feinstein served as USAID's 
senior deputy assistant administrator for Legislative Affairs, 
in the Office of USAID Administrator, on the professional staff 
of the House Appropriations Subcommittee on State and Foreign 
Operations and the House International Relations. She has also 
served in various capacities at the Department of State and 
Defense.
    She earned a BA from the University of California at 
Berkeley and a master's from Princeton University. I would like 
to mention to staff, obviously Berkeley is--what about my alma 
mater?
    Ms. Ros-Lehtinen. Which one is your----
    Mr. Cook. No, I am only kidding. I won't tell you. I don't 
want to embarrass my alma mater for graduating me.
    Ambassador Trujillo, you are recognized.

  STATEMENT OF THE HONORABLE CARLOS TRUJILLO, U.S. PERMANENT 
        REPRESENTATIVE, ORGANIZATION OF AMERICAN STATES

    Ambassador Trujillo. Thank you.
    Chairman Cook, Ranking Member Sires, members of the 
subcommittee, thank you for conducting this hearing and for 
allowing me the opportunity to come before you to address the 
most urgent matter and the critical need to work together to 
uphold freedom, democracy, and respect for human rights for the 
people of Nicaragua.
    On June 4, at the 48th Regular Session of the General 
Assembly of the Organization of American States, Secretary 
Pompeo underscored that ``we join with the nations around the 
world in demanding that the Ortega government respond to the 
Nicaraguan people's demand for democratic reform and hold 
accountable those responsible for violence.''
    The Secretary's remarks echoed those of Vice President 
Pence during the May 7 visit to the OAS headquarters in which 
he also stressed the United States will continue to stand with 
all Nicaraguans peacefully exercising their fundamental 
freedoms in the face of tremendous repression, and the will to 
continue to press for democracy and accountability in 
Nicaragua.
    Let me begin today by underscoring that the United States 
condemns the Nicaraguan Government's ongoing violence and 
intimidation campaign against its own citizens, and more 
recently, church officials.
    The United States is under no illusion as to who is 
responsible for this violence. The United States condemns the 
attacks in Diriamba and surrounding areas over the last several 
days, including the heavy-handed tactics against the mediators 
of the national dialogue, such as Cardinal Brenes, who recently 
returned from Rome.
    The United States has backed up our words of condemnation 
with actions. Last week, we announced the designation of three 
Nicaraguan officials for human rights abuses and corruptions 
under the Global Magnitsky Human Rights Accountability Act.
    The strategic designation targeted those who gave shoot-to-
kill orders that have resulted in the deaths of Nicaraguans who 
were exercising their constitutional rights to oppose their 
government. The designations also targeted facilitators of who 
those who strive to enrich themselves off of the backs of the 
Nicaraguan people.
    These targeted sanctions, plus earlier and continuing visa 
revocations, show the United States will expose and hold 
accountable those responsible for the Nicaraguan Government's 
ongoing violence and intimidation campaign against its own 
people.
    Let me be clear. It is Ortega's government that every day 
renews its directive to kill its people in order to remain in 
power. Local human rights groups and international media report 
that 38 people were killed just between July 8 and July 10 in a 
government offensive that also injured the church officials. 
Between April 19 and July 20, over 300 people have died. More 
than 2,000 have been injured and over 200 are still reported 
missing.
    Just yesterday, the Inter-American Commission on Human 
Rights briefed the OAS Permanent Council on its ongoing efforts 
on the ground in Nicaragua and recounted a variety of 
systematic and disturbing human rights abuses. Furthermore, it 
again made clear the Nicaraguan Government's responsibility for 
the ongoing violence and repression.
    According to Inter-American Commission, the Nicaraguan NGO 
Center For Human Rights and Amnesty International, there is 
substantial evidence that the government is directing the 
national police as well as Sandinista Youth and government-
controlled gangs to repress protesters violently.
    There are credible reports of extrajudicial killings, 
forced disappearance, and torture in custody. Furthermore, 
citizens have been unable or unwilling to access healthcare for 
their injuries.
    People have distrust to government-run hospitals that they 
have reportedly forced families to sign certificates that 
falsifies the cause of death in order to retrieve the bodies of 
their deceased or loved ones.
    The United States supports the Commission's new mechanism 
to investigate human rights abuses and believes strongly that 
we must hold those accountable for human rights abuses, 
accountable for their actions.
    We welcome, in particular, the efforts of the international 
Interdisciplinary Group of Independent Experts. I am pleased 
that the Group of Independent Experts is in Nicaragua as we 
meet today investigating the ongoing acts of violence taking 
place in Nicaragua. It is imperative that OAS member and 
observer states provide the Commission the support necessary to 
ensure it can carry out its important mission effectively and 
remain on the ground as long as necessary, while performing its 
vital work unimpeded by the Nicaraguan Government.
    For its part, the Government of Nicaragua had indicated its 
willingness to cooperate with the Commission's effort, but so 
far, it appeared to have impeded the work of the Commission, 
and just yesterday, rejected the IACHR's finding when presented 
to the OAS Permanent Council.
    It is for this reason that the OAS must continue to shine 
the spotlight on the human rights crisis unfolding before our 
eyes in Nicaragua and hold the Nicaraguan Government 
accountable.
    Esteemed members of the subcommittee, let me also be clear 
that while these mechanisms and visits are a necessary step 
toward greater accountability and enhanced citizen security, 
they nonetheless are insufficient to resolve the ongoing crisis 
of governance and democratic backslide in Nicaragua. The 
violence and loss of life in Nicaragua reflects the need for 
urgent democratic reforms now, consistent with the purpose, 
practice, and principles of the OAS, especially those 
articulated in the Inter-American Democratic Charter.
    Simply put, the Nicaraguan people deserve far better from 
their government. We strongly support the proposal by many 
sectors of the Nicaraguan societies for free, fair, and early 
elections with credible domestic and international electoral 
observations in line with the terms and spirit of the Inter-
American Democratic Charter.
    There is no apparent way to resolve this political crisis. 
We have urged the OAS secretary general to promote and support 
the reform of democratic institutions in Nicaragua, especially 
the electoral system, who was manipulated by the government in 
recent years and spark the Nicaraguan people's demand for fair 
and transparent process.
    Thank you.
    [The prepared statement of Ambassador Trujillo follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Cook. Thank you, Mr. Ambassador.
    Ambassador Kozak, you are now recognized.

 STATEMENT OF THE HONORABLE MICHAEL KOZAK, SENIOR ADVISOR AND 
SENIOR BUREAU OFFICIAL, BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND 
                LABOR, U.S. DEPARTMENT OF STATE

    Ambassador Kozak. Thank you, Mr. Chairman, Ranking Member 
Sires, and members of the subcommittee. It feels like old 
times, Congresswoman Ros-Lehtinen. I was acting assistant 
secretary for WHA the last time we were talking about Daniel 
Ortega and Nicaragua, and here we go again. Let's hope it turns 
out the same way. But thank you for holding this timely 
hearing.
    On June 14, Vice President Pence called on Daniel Ortega to 
end his government's crimes and answer his nation's cry for 
democracy and human rights. The way to do this is to answer 
their call for early, free, and fair elections.
    Our message is simple: Allow the Nicaraguan people to 
resolve this crisis through democratic means.
    The continued campaign of violence against protesters is 
self-defeating. More than 300 people have died since protests 
started on April 18, and that number is increasing.
    The reason the Ortega-Murillo regime faces these protests 
is precisely because they have responded to legitimate 
grievances with violence. More of the same will not end the 
crisis. Daniel Ortega should know better than most. This did 
not work for Somoza. It will not work for him.
    There is substantial evidence that the government is 
directing national police, Sandinista Youth, and government-
controlled gangs to suppress protests violently. There are 
credible reports of extrajudicial killings, forced 
disappearances, and torture, and there is evidence of the use 
of snipers. Citizens have been unable to obtain healthcare for 
their injuries. Government-run hospitals have reportedly forced 
families to sign certificates that falsify the cause of death.
    This crisis has been years in the making. It is the product 
of the hollowing out of democratic institutions under Daniel 
Ortega and Rosario Murillo. Their regime has disregarded the 
rule of law, basic tenets of democracy, and international 
commitments to protect human rights. Instead, the family has 
governed through pacts, where they allocated the political and 
economic spoils of dictatorship with other groups.
    The ruling party controls the legislative and judicial 
branches of government. The Ortega-Murillo family controls 
eight of the nine major television stations. And when the 
violence broke out, the Ortegas ordered five independent 
television stations off the air.
    Since the 2008 elections, Ortega has consistently blocked 
opposition party candidates from the ballot. Before the 2016 
general elections, Ortega had the supreme court disqualify a 
principal opposition leader, and the Supreme Electoral Council 
was ordered to remove 16 of 27 opposition members from the 
National Assembly.
    The United States has consistently called on the Government 
of Nicaragua to respect peaceful protest, human rights, freedom 
of expression, and democratic norms. We are pleased that we 
have been joined by many others in calling out these abuses. A 
European Union statement condemned the May 30 Mother's Day 
violence. It urged that the government implement all Inter-
American Human Rights Commission recommendations and permit the 
entry of relevant U.N. bodies. U.N. Secretary-General Guterres 
said that it was essential that those responsible for such 
serious human rights violations are held to account.
    U.N. High Commissioner for Human Rights has called for the 
creation of international commission to investigate the 
violence. And as OAS Secretary General Almagro indicated 
yesterday, early, free, and fair elections are imperative if 
Nicaragua is to solve this crisis.
    Now, we have called on other elements of the Nicaraguan 
Government who have admirably not involved themselves in these 
abuses to live up to the hemisphere's shared commitment to 
democracy. We admire the many in Nicaraguan public service who 
do not allow their professional loyalty to be abused by a 
corrupt family seeking to cling to power through brutal means.
    As my colleagues have indicated, we have used visa 
revocations and restrictions under section 6 of 212(a)(3)(C) of 
the Immigration and Nationality Act, to restrict the visas of 
people who are responsible for these crimes, and we have--most 
recently, used the Global Magnitsky Act. These are the 
beginnings of an effort to support the efforts of the 
Nicaraguan people through using the tools that you in Congress 
have provided us.
    Those who continue to collaborate with the Ortega-Murillo 
regime in abusing the human rights of the Nicaraguan people and 
preventing them from exercising their democratic rights will 
find themselves and their families in the same situation as 
those who just had their visas and economic activities 
restricted. But those who respect human rights and democratic 
institutions have our respect, and more importantly, they have 
the respect of their own people.
    The subcommittee is wise to shine a spotlight on this 
crisis brought about by the insistence of one family in 
clinging to power through violence. The Nicaraguan people 
deserve a government that respects their vote and respects 
human rights. This is why we support the dialogue under the 
auspices of the Catholic Church, so long as it is aimed at 
implementing the call for early, free, and fair elections.
    We will work closely with this committee to support the 
efforts of the Nicaraguan people to bring about a democratic 
end to their suffering.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Kozak follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Cook. Thank you, Mr. Ambassador.
    Before I introduce our next speaker, it is somewhat of an 
anomaly that 2 days in a row we have a witness from USAID. And 
I am delighted, very impressed with my visit down there and 
other places. So obviously, everybody on the staff loves you, I 
guess.
    So, Ms. Feinstein, you are now recognized. Thank you for 
being with us.

     STATEMENT OF MS. BARBARA FEINSTEIN, DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Feinstein. Thank you.
    Chairman Cook, Ranking Member Sires, and members of the 
subcommittee, thank you for this invitation to testify today 
and for holding this hearing at such a critical time.
    On behalf of the United States Agency for International 
Development, I want to thank the subcommittee for its 
unyielding commitment to advancing human rights and democracy 
in our hemisphere and for your support of USAID's work in 
Nicaragua.
    As many of you know, the United States is the only 
remaining donor working on democracy, governance, and human 
rights in the country. And it is thanks to your support that we 
have been able to maintain a crucial lifeline for civil society 
organizations, human rights defenders, emerging leaders, and 
independent media, all of whom remain under grave attack.
    At no time has that lifeline been more critical than in the 
last few months, as the Ortega government has sustained a 
brutal crackdown against the Nicaraguan people, censoring media 
and unleashing a reign of terror against any who challenge its 
repression, including the recent brutal attacks against the 
clergy as well as Felix Maradiaga.
    According to the latest figures, more than 300 people have 
been killed since the protests began in April 2018, most at the 
hands of the national police, pro-government youth groups, and/
or para-police.
    In early June, I had the privilege of joining Administrator 
Green in meeting with some of the courageous student leaders, 
independent journalists, and human rights defenders who came to 
Washington, D.C., to shine a light on the atrocities underway 
in their country. We heard firsthand how students are putting 
their lives on the line to protest injustice, peacefully demand 
their rights, and condemn the killings, torture, and 
disappearances of their friends and fellow students.
    Human rights defenders spoke of jail sentences and other 
threats that both they and their families are facing--
punishment for daring to speak the truth. And journalists 
shared stories of the perilous environment within which they 
are operating--some murdered in cold blood for chronicling the 
government-sanctioned brutality we continue to witness to this 
day.
    Administrator Green has added his voice to that of Vice 
President Pence and Secretary of State Pompeo in condemning the 
atrocities committed by the Ortega regime.
    USAID commends the bravery of the students, journalists, 
human rights defenders, civil society, religious leaders, and 
indigenous groups who have united their voices in a call for 
justice, rule of law, and a return to democratic order. We also 
recognize and respect that any meaningful change must be led by 
the Nicaraguan people themselves. This is their movement, and 
we will provide appropriate support when requested and 
warranted.
    Indeed, as this crisis has unfolded, USAID has provided 
rapid assistance to scores of civil society groups, human 
rights organizations, independent media, and others involved in 
peaceful protests.
    To ensure reporting of independent and accurate information 
at a time when government-controlled forces are systematically 
censoring independent media, either through cyber attacks, 
destruction of physical infrastructure, online slander 
campaigns, or unfounded criminal charges, USAID is providing 
critical assistance to journalists from 14 different 
independent media outlets. This assistance, which builds upon 
longer term efforts to strengthen independent media in the 
country, is helping to combat disinformation and disprove the 
distorted narrative promoted by the Ortega government.
    USAID has also mobilized technical expertise to provide on-
the-spot assistance with digital security for USAID partners 
working in civil society and media who have seen an increase in 
online attacks, heightened online surveillance, and attempts by 
the government to take websites off-line.
    To ensure human rights protections, USAID has awarded 
multiple, small grants to Nicaraguan human rights and civil 
society organizations. These funds are enabling these groups to 
provide short-term legal aid for those detained, injured, or 
for the families of those killed in the protests. Our resources 
are also helping to coordinate and support networks of human 
rights defenders, to document violations, and to elevate cases 
of human rights abuses to the Inter-American and U.N. systems.
    USAID continues to recalibrate our approach to assist those 
in need and to position the agency to respond to opportunities 
as they emerge.
    The United States will continue to respond as appropriate, 
and we express our solidarity with the courageous protestors, 
journalists, and other democratic actors in civil society 
seeking a better future for themselves and their families.
    Mr. Chairman, members of the subcommittee, thank you for 
shining a spotlight on this crisis and for your commitment to 
advancing the freedom and human rights of citizens throughout 
the hemisphere.
    I look forward to your questions.
    [The prepared statement of Ms. Feinstein follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
                              ----------                              

    Mr. Cook. Thank you very much.
    I am going to forego my remarks at the time. I am very 
pleased with the number of members that we have here. And we 
got a busy afternoon, multiple committees, so I am going to 
come back later on. But right now, I do want to turn to the 
ranking member Sires for his questions.
    Mr. Sires. You have to go? Go ahead. I will go after you.
    Mr. Smith. Thank you very much, Albio, Ranking Member 
Sires.
    Mr. Cook. This is the way everybody should get along.
    Mr. Smith. New Jerseyans. I am chairing a hearing at 3 
o'clock on tuberculosis, so I will have to leave.
    But I want to thank, first of all, our three highly 
distinguished witnesses who are incredibly effective, just have 
done yeoman's work for human rights. And I just want to thank 
all of you for what you are doing now, particularly during this 
crisis. I do have just a couple of comments and questions, and 
I will be brief.
    And, Ambassador Kozak, as you said, here we go again. It 
was 36 years ago that I first met with Daniel Ortega in 
Managua. I went down on a trip. It was Frank Wolf, Tony Hall, 
Bob McCune, and I. We met with him and Tomas Borge. It was a 
contentious set of meetings. And we brought up one issue after 
another with regards to human rights abuse, the systematic use 
of torture, and here we go again.
    So, you know, it is the same person, Comandante Ortega, as 
he even preferred to be called then.
    And I guess my first question would be about--and thank you 
for those three designations under the Magnitsky Act. 
Hopefully, there will be more. And I am sure that is under very 
active consideration.
    But, you know, as Mark Green and you, Ambassador Kozak, 
heard from students just about a month ago, some of those 
students who got food and sustenance during their crisis with 
the government got sick, fell ill. Because the belief is that 
they were intentionally--they ate intentionally tainted food.
    When Frank Wolf and I and the other two met with Daniel 
Ortega, three of us drank the drink that was given to us by 
Daniel Ortega. One did not. Tony Hall did not. He didn't get 
sick. We got violently ill for about 14 days.
    Can't say for sure, but what a terrible indicator, now 
these wonderful students have gotten sick from that. And if you 
might want to speak to that, because you know, we know what 
Cuba has done to our diplomats. You know, these other ways, you 
know, the billy clubs and the torture and the bullets are one 
way, and the beatings. Another way is to kill people or hurt 
them severely through poison. And, of course, what they do in 
Cuba was outrageous.
    Secondly, very quickly, the prelates, including the nuncio, 
who is an ambassador. And certainly, when you mistreat an 
ambassador, that crosses a line internationally. What is being 
done, if you could speak to that.
    You know, the church over and over again, as we all know so 
well, whether it be in DR Congo--and I am going there in about 
a month--we see it in South Sudan--the church steps up. It did 
it in Nicaragua for so many times, years under Obando y Bravo.
    My question is what could be done with regards to our 
governance accounts to further fortify the church's incredible 
role in mediating and trying to bring peace and reconciliation?
    I have many other questions, but, again, having been given 
this opportunity to go first because of my hearing, I will 
forego that and submit those questions for the record.
    Ambassador Kozak. Thank you, Mr. Smith. It is a pleasure to 
see you again.
    The poisoning issue that you mentioned, unfortunately, I 
have seen that in too many places, that it all went to the same 
spy school. So I don't have anything specific on this one, but 
it wouldn't surprise me. We have seen it before in too many 
places.
    And, again, there seems to be no respect there for what you 
do to diplomats, but more importantly, what they are doing to 
their own people.
    On the nuncio, I think it would be up to the Vatican to, 
you know, make a protest over mistreatment of their envoy.
    And Barbara can talk too--but I think we are in a position 
to be supportive of mediation efforts. And, you know, if we are 
successful and we are trying to plan for success here, if we 
are able to get agreement to an early election, you know, there 
is a whole string of things that will come with that. 
Observers, both international and domestic, reformation of the 
electoral machinery and so on. So I think we are very cognizant 
of that in trying to set stuff aside.
    I would make one request to you and the other members of 
the committee, which is, we are getting near the end of the 
fiscal year. And the gap we always run into is that, at the 
beginning of the year, all money gets frozen, sometimes for 
like 6 months while we do all the negotiations. And if we are 
lucky enough that we are moving on this, we may be coming back 
to you and saying, can we get an early release of funds next 
year to try to deal with that.
    Mr. Smith. Thank you so very much. I do have other 
questions, but I will wait.
    Mr. Cook. Thank you, Ambassador.
    Ranking Member Sires.
    Mr. Sires. Thank you, Chairman.
    You know, I am always amazed at the audacity of these 
people like Ortega. He goes and puts his wife as vice 
president. You have the second poorest country in the region. 
He goes and buys $80 million worth of tanks from Russia. I 
assume that he is going to turn those tanks on his people.
    To me, if anybody continues to deal or work or invest with 
this Ortega thug, we have to find a way of stopping that, 
because he is just getting richer and richer and richer. I 
understand his brother is rich, his wife is very rich, he is 
very rich. And I am concerned that it is going to lead to a 
civil war in that country again.
    They went through a civil war once before, which was really 
devastating to the country. I don't know if they ever have 
recovered from it. And I am afraid that the way he is behaving, 
with the support of some of these other countries, it is going 
to head that way.
    So what more pressure can we put on this thug from 
Nicaragua that we are not doing now? I know that there was $10 
million in the budget for Nicaragua. I hope that we don't go 
through with that. I hope that we can get the NICA bill through 
the Senate. I think that would send a strong message to the 
international community not to deal with this thug.
    So what else can we do as a Congress here? We have a 
resolution condemning the Ortega regime.
    Ambassador, can you think of anything else that we can----
    Ambassador Trujillo. Thank you for your question. I think 
one thing from the multilateral perspective, Representative, 
having friends and allies also lend support from a financial 
perspective and also from a diplomatic perspective.
    Inside of the OAS, we are pursuing a resolution which, 
hopefully, we will take up either tomorrow or the following 
week. Like all resolutions, it is important for its passage. In 
order to receive its passage, we need 18 votes. Without 
revealing our vote count here in public, I will be happy to sit 
down with you and go over some of the countries that diplomatic 
pressure would be very, very important in a multilateral 
setting in getting their support.
    Getting financial support for the Commission on Human 
Rights, having as many people as we can on the ground, 
supervising, taking notes of the violations of human rights is 
also very, very important.
    To date, the missions run about $1.4 million. The U.S. 
mission has contributed $500,000, with a willingness to do 
more. Unfortunately, a lot of other countries have not 
contributed any resource whatsoever to supporting--to 
supporting those efforts. And I think acts like the NICA Act 
and other bilateral pressure that does exist, the Global 
Magnitsky sanctions, individual visa revocations, is something 
that could take place.
    I think a variety of not only multilateral, but bilateral 
pressure, and that combination and that timing, that systematic 
approach and that coordination, could really lead to create the 
conditions for true, earnest diplomatic solutions to this 
problem.
    Mr. Sires. Well, I will be happy to work with you on any of 
those, because--you know, when you have the killings--and I 
understand now they have snipers trying to kill the most active 
members of these demonstrations. It seems that they are going 
by the same way Venezuela is going. I think they got the idea 
from Venezuela. And I wonder where Venezuela got the idea from.
    So it is really disheartening that they were going on a 
path that everybody was looking up to Nicaragua, and now we are 
just taking a step backwards. And sometimes it bothers me that 
we don't see this coming here in America. I think that we have 
to really start focusing more on the Western Hemisphere and 
what is going on in the Western Hemisphere, because every time 
we look the other way, Russia seems to be stepping in. You have 
seen China to be stepping in. And now, we have places where 
Iran is starting to set up these schools throughout the Western 
Hemisphere. And I just worry that we are always a step behind 
some of these people and some of these countries.
    I mean, Ortega was known to be a no-good crook for years. 
And yet we have people investing money with the regime, 
investing money with the clan from Ortega. You know, it just 
boggles my mind that we always seem to be a step behind some of 
the things that go on in the Western Hemisphere.
    Thank you.
    Mr. Cook. Yes.
    I would like to recognize the gentleman from Florida, Mr. 
Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate it. I 
appreciate the panel being here.
    I want to build off of what Albio Sires says, and I agree 
with his sentiment that the West, the Western Hemisphere, the 
democracy is falling down.
    And, Ms. Feinstein, I would like to have from you, what do 
we need to do different? I mean, we have invested $194 million 
in 10 years in Nicaragua, and a lot of that goes to good 
governance. It is obviously not working.
    What is the major impediment that you run into when we are 
spending the American taxpayers money on what we claim to be 
democracy, what they are doing is nothing near a democracy? I 
want to know what we have to do on the ground different.
    Ms. Feinstein. Thank you, Congressman, for that question. 
Ultimately, the solution to what happens in Nicaragua, as has 
been the case to this point, and will be the case going 
forward, rests with the people of Nicaragua, including the 
Government of Nicaragua. And the situation that we are seeing 
today is a product of actions taken by Daniel Ortega, by 
Rosario Murillo, and the various actions that we are responding 
to right now. It is very clear that the responsibility lies 
with----
    Mr. Yoho. Okay, let me interrupt you there.
    Ms. Feinstein. Yes.
    Mr. Yoho. Because we agree, Ortega is a bad player. And the 
people can't respond because of the form of government he has. 
When did we see this starting to deteriorate? And could we have 
intervened earlier or done something different, putting more 
pressure on the Ortega government, gone in there and maybe 
pulled back trade or pulled back support earlier on?
    Ms. Feinstein. I would defer to my colleagues in terms of 
diplomatic initiatives. I would say, broadly speaking, at this 
point in time, and this is also to the ranking member's 
question, I think there is an important role that other 
countries in the region can also play, and I think that 
Congress can have a very important role in leaning on other 
actors, including in Central America, in Mexico, in the region, 
since instability in this country is not in their interest, in 
addition to its economic implications.
    I would say at this very point in time, we are well-
positioned, since we have been a lifeline to civil society in 
Nicaragua. We have been the only actor in this space in recent 
history, which has allowed us to undertake interventions in 
four key areas. In human rights, independent media, legal 
assistance, and digital security, which are keeping people 
alive, allowing them to document human rights violations. And 
going forward, as hopefully a greater accountability can be 
brought to bear, whether it is within Nicaragua, ideally, one 
day, but certainly in Inter-American fora, and in international 
fora, the kind of documentation that is taking place on the 
ground right now will be absolutely essential to that.
    Mr. Yoho. I agree with all of what you are saying, and we 
are documenting that, but yet it is getting worse, the whole 
situation. And it is not just Nicaragua. It is Honduras. It is 
all these other countries. There has got to be a paradigm 
shift. We have got to do something different. And we can work 
with civil society, but if you have got a corrupt government, 
it is not going to change.
    What do we have to do? I mean, the only way I can see it 
happening is empowering the people to change government, 
because empowered people can change government. But if they 
don't have the rule of law and the honoring of human rights, 
you are never going to have it.
    They will tolerate it, the dictators, or the Ortegas of the 
world, they will tolerate a certain amount of human rights--if 
we come in there and we demand these things, they will tolerate 
us with a little bit of that, but they are doing a whole lot of 
corruption, and a decay of what we believe as democracy, the 
best way to live in the world, free people.
    Is there anything else? I mean, where do you begin, I mean, 
without changing governments or the people in there? And 
certainly, we have been down that road and we don't want to do 
that. What about having a coalition of other governments? The 
OAS, to have them come in there and put more pressure on them 
as an organization, or are they as inept as the U.N.?
    Does anybody want to----
    Ambassador Trujillo. I think, Congressman, the OAS, from a 
multilateral perspective, could put pressure, multilateral 
pressure with some of the other countries, but sometimes I 
don't feel like that is even enough.
    I think if the real problem here is corruption, we need to 
attack the individual corrupt actors. Congress, the U.S. 
Government has multiple tools in order to attack these 
individual corrupt actors. Once you show that these actors 
don't have impunity before the law, they have to move those 
assets, whether it is----
    Mr. Yoho. We have been talking about this for 20, 30 years, 
but we are not getting the results. So what was your suggestion 
on how do you hold them accountable? Who is going to hold them 
accountable, besides the----
    Ambassador Trujillo. So I think the Global Magnitsky Act 
hold those three people accountable, but we know that they are 
not the only ones. There are other people who are stealing and 
looting the riches of the Nicaraguan people. They need to be 
held accountable. The banks that do business with these 
individuals need to be held accountable. These individuals have 
the impunity of being able to travel to the United States. 
Their visas should be held----
    Mr. Yoho. I have got to cut you off because I am out of 
time. And I thank you for your time.
    Thank you, Mr. Chairman.
    Mr. Cook. Thank you very much.
    I now recognize the gentleman from York, Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman, Ranking Member.
    Just in a few weeks, our President will be meeting with 
Vladimir Putin. Vladimir Putin has long sought to deepen ties 
with allies that share a resentment of the U.S. leadership, 
both locally in the Western Hemisphere as well as across the 
world.
    With Nicaragua and Russia increasingly deepening their 
relationship, and Russian weapons being used by the Ortega 
regime against opposition demonstrators--as was previously 
stated by one of my colleagues, Russian tanks were bought--what 
are we doing to help our country? What are we doing to help 
resolve this situation?
    If we have a hunky-dory relationship with one of the main 
actors disturbing and creating havoc in Nicaragua, what do you 
suggest for our government to do vis-a-vis Russia with regards 
to the situation in Nicaragua?
    Ambassador Kozak, if you can.
    Ambassador Kozak. Thank you for that question, sir. I would 
say that I wouldn't characterize our relationship with Russia 
as hunky-dory. We have got more sanctions and pressure on them 
now than we have had in a long time. Unfortunately, the 
relationship between Russia and the Ortegas goes back to the 
times we were talking about----
    Mr. Espaillat. But I would say our relationship----
    Ambassador Kozak [continuing]. The late 1970s.
    Mr. Espaillat. I would say our relationship with Russia 
right now is better than with NATO, given what transpired in 
the last couple of days.
    Ambassador Kozak. I am not going to characterize broad 
relationships, but I would say, with respect to Nicaragua and 
Russia--I happened to be in Nicaragua talking to the Ortegas 
when that first report of the sale of the tanks came up, and 
asked him about it. He was evasive. In fact, almost lied 
saying, oh, no, they were just armored vehicles.
    For the life of me, I can't figure out what he is going to 
do with $80 million worth of T72 tanks. They aren't very good 
at battling your own people in the streets, and he doesn't have 
any enemies with tanks.
    But the thing that is really hurting that regime right now 
is what he is doing to himself. They have effectively destroyed 
the economy much better than anything we could have done.
    So I think we want to keep warning Russia against 
adventurism in this region, just as we are against some of 
their bad activities in Eastern Ukraine, Croatia--or Crimea and 
in Georgia. But, you know, that is not going to be the solution 
to the problem in Nicaragua. The solution to the problem there 
is for the Ortegas to step down and get out of the way and let 
the country get on with its future. But it is, unfortunately, a 
longstanding problem of the Russians providing support to these 
kinds of regimes.
    I think it is not only founded in the old days, it was 
founded somewhat in ideology. Now it is founded heavily in just 
anti-Americanism and corruption. These are corrupt oligarchs on 
both sides, and it is no good for anybody else.
    Thank you, sir.
    Mr. Espaillat. One last quick question is, Congress 
appropriated $10 million in development assistance to Nicaragua 
for fiscal year 2018, although the White House requested zero 
funding.
    In your opinion, Mr. Trujillo, what kind of resources are 
needed on the ground there to help promote democracy? Are there 
any specific programs, initiatives that could be funded? And do 
you have an idea, a ballpark figure of what kind of moneys is 
necessary to keep the process moving forward for these pro-
democratic forces on the ground?
    Ambassador Trujillo. Well, Congressman, I think our 
immediate concern from the OAS perspective is ground support 
for the International Commission on Human Rights and technical 
experts that prevent human right abuses.
    We know that their request initially was $1.4, $1.5 
million. That request, obviously over time as conditions 
worsen, will continue to go up. That would be an immediate area 
in which the United States could have an influence in 
protecting human life.
    For a recommitment to democratic institutions, the OAS has 
worked on that in the past, but part of that is there has to be 
a commitment from the government to engage in the recommitment 
to democratic institutions. And that could range from a couple 
of million dollars--the OAS had a budget for $30 million--it 
could go up into the hundreds of millions of dollars, depending 
on how much commitment we have to rebuilding a democratic 
institution, an electoral institution, an independent 
judiciary.
    So it could be extensive, it could be exhaustive, but I 
think the one thing we have to focus on is if the government 
lacks the willingness to negotiate and to cooperate and to 
rebuild the democratic institutions, no amount of money will be 
necessary--will be sufficient.
    Mr. Espaillat. Thank you. Thank you, Mr. Chairman.
    Mr. Cook. Thank you very much. I guess it gives new meaning 
to the old saying, a chicken in every pot and a tank in every 
garage.
    I want to turn to my good friend, the gentleman from Texas, 
Mr. Castro.
    Mr. Castro. Thank you, Chairman.
    The situation in Nicaragua is dire. And I appreciate the 
President and the administration's actions in designating 
certain individuals in Nicaragua complicit in violence against 
civilians under the Global Magnitsky Act.
    And in the past weeks, hundreds of civilians have been 
killed by the government of Daniel Ortega. Elections are 
scheduled for 2021, and President Ortega has denied early 
elections. But 2021 is a long time away. And Nicaraguans now 
exist in a very hostile political environment.
    Are you pressuring the Nicaraguan Government to hold 
elections earlier than scheduled?
    Ambassador Kozak. Yes, sir. I think as we have all 
testified, that is what we have been calling for. We are 
standing with the call of the Nicaraguan people for early 
elections, as that seems to be the only available option for 
solving the crisis.
    Nobody is going to be able to reconcile with the regime in 
power, and so it is really important for them to get out of the 
way and let the country make a future for itself. But, you 
know, it is how do you make that happen mechanically. How do 
you put enough pressure on the family, basically, to make that 
choice and get out of the way.
    Mr. Castro. Let me ask you, what American businesses are 
very active in Nicaragua? Which ones come to mind?
    Ambassador Kozak. It has been a while, but I think Walmart, 
you said? Cardel, Walmart. I mean, Walmart was building a place 
to sell their products. But, again, I don't know that there is 
anything we need to do about that. The deterrent now on anyone 
investing anything in that place is the behavior of the 
government. They are doing a dandy job of creating sanctions 
against themselves, and that is actually increasing pressure on 
them. The people in the streets is a huge pressure that is 
being generated by Nicaraguan people themselves. The flight of 
capital out of the country, the lack of investment, is a direct 
reaction to the behavior of the government. And, you know, we 
are a supporting player in this and, as we have all discussed, 
trying to take the measures that we can with the tools you have 
given us.
    And just to follow up, I would say why have we not used 
Global Magnitsky before? Well, it came into force about a year 
ago, and it is a tremendous tool, because it allows us to go 
after corrupt and human rights abusing officials in other 
countries without imposing sanctions on the entire country. We 
are able to be much more targeted, so we really appreciate 
that.
    Mr. Castro. And let me ask you a question about OAS. As you 
know, there has been widespread condemnation in the Americas of 
our government's policy of separating young children from their 
parents, including at OAS. And, you know, how is this affecting 
our ability to deal through OAS on these other issues like 
Nicaragua?
    Ambassador Trujillo. Thank you, Congressman, for the 
question. We did host a hearing on the border issue on the 
separation of families, and obviously it was a unique issue 
that was addressed at that one particular hearing. Since then, 
there has been absolutely no push back.
    I think we have realigned with our allies and focusing on 
the issues that all of us are concerned about in the Western 
Hemisphere, mainly the deteriorating situation in Nicaragua, 
also the continuing deteriorating situation in Venezuela. I 
have personally had multiple meetings with a host of different 
OAS member states, a lot of countries we have traditionally 
aligned with, and we are continuing in a very good working 
relationship.
    Mr. Castro. Good. I yield back.
    Mr. Cook. Thank you.
    I would like to recognize the gentlewoman from California, 
Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman. And thank you, 
Ambassador Kozak and Trujillo and Ms. Feinstein for being here 
with us to talk about the instability in Nicaragua, which has 
been very alarming to us and our constituents. I am quite a fan 
of the Global Magnitsky Act, and I want to encourage you to 
continue to use that, you know, to the extent that we can, in 
other regions too, including Guatemala. Some of these very 
corrupt individuals, specifically Members of Congress, need to 
know that they just can't come to the U.S. to visit Disneyland 
when they are treating their people so badly.
    I want to talk to you about TPS. I want to talk to you 
about the ongoing unrest, and the State Department has told 
some of U.S. Government employees and their families to leave 
Nicaragua, and are now telling U.S. citizens to reconsider 
their travel into Nicaragua. So are you also looking at maybe 
getting the Trump administration to reevaluate the temporary 
protective status that is requiring some 5,300 Nicaraguans to 
return by January 5 of 2019? Has there been any conversations 
around that issue?
    Ambassador Kozak. I have not been part, but my bureau would 
not normally be part of TPS.
    Mrs. Torres. But as you are assessing the situation down 
there, I am hoping that there would be some commonsense 
communication between, you know, the right hand and the left 
hand to advise the White House that maybe this is a policy that 
we should revisit to send people back to a country that is in 
such disarray and civil unrest.
    Ambassador Kozak. We can certainly carry your 
recommendation back.
    Mrs. Torres. Thank you.
    Ambassador Kozak. I would make the distinction, though, 
that when we draw down the staff in embassies, it is largely 
because the Embassy is a particular target.
    Mrs. Torres. I understand that.
    Ambassador Kozak. It is not just because of generalized 
violence in the society, it is a very particular target, and we 
are trying to narrow the size of the target for the bad guys to 
get at.
    Mrs. Torres. I understand, but your safety----
    Ambassador Kozak. But we will happily take your 
recommendation to my colleagues.
    Mrs. Torres. Thank you. And just for the record, your 
safety is very important to me also.
    Ambassador Kozak. Yes.
    Mrs. Torres. Let's talk about the region and the impact 
that this instability in Nicaragua is maybe having in Costa 
Rica, El Salvador, Honduras, that are already, you know, having 
their own issues. Can you talk a little bit about that? What 
are you seeing? Are you seeing folks crossing the border into 
these countries?
    Ambassador Kozak. Yes. My sense is we haven't seen a huge 
outflow at this point. Nicaraguans tend to migrate more to 
Costa Rica than to the other places.
    Mrs. Torres. How can we engage our partners there, Chile, 
Costa Rica, some of our, you know, more affluent partners to 
help mitigate this situation there?
    Ambassador Kozak. Well, I think--and I will turn to my 
colleague, and certainly in the OAS, they are being engaged and 
engaged bilaterally. I mean, one of the things that is 
important, though, that you alluded to in your question is, you 
know, up until recently, Nicaragua was sort of the island of 
stability, and it was the other countries around, but it was a 
false stability. And, you know, we did see this coming, not the 
flash point that set off the latest violence, but you could 
just see this building up over years that the more the Ortegas 
have squashed out any kind of political alternatives to 
themselves, they have even split their own movement. The fact 
that she was made the vice president over the objections of, I 
think, most of the Sandinista Party is pretty apparent. So they 
were creating this powder keg all along. It finally got lit off 
with the Social Security protest.
    But it is concerning, because we have had enough trouble 
with the countries that have had instability because of gang 
violence and narcotraffickers and so on and now you have got 
this to boot.
    Mrs. Torres. Thank you. Mr. Trujillo?
    Ambassador Trujillo. As far as the migration issue, 
Congresswoman, in the OAS context, it hasn't really come up. I 
think the one thing we do see in Costa Rica is Nicaraguans who 
have some sort of legal recognition trying to adjust that 
recognition or trying to extend that recognition, but from a 
migration issue of Nicaraguans leaving Nicaragua and either 
heading north or heading south----
    Mrs. Torres. China--can I ask? Sorry, I only have 15 
seconds. China, what are you seeing? We have talked about 
Russia, but is China also--what are their activities there in 
Nicaragua, and are we concerned?
    Ambassador Trujillo. I haven't seen any from my 
perspective.
    Mrs. Torres. Okay. Thank you. I yield back.
    Mr. Cook. Thank you very much.
    I am going to recognize the gentleman from Ohio, Mr. 
Chabot.
    Mr. Chabot. Thank you very much, Mr. Chairman. And I had 
two hearings going on here at the same time, so I apologize for 
being a little bit late. And if I would ask some of the 
questions that have already been asked for that, I apologize.
    Although I don't serve on the subcommittee, I am very 
interested in the deteriorating situation in Nicaragua, and 
have been on the Foreign Affairs Committee for 22 years now and 
have chaired the Middle East and the Asia committee, but not 
this one.
    Over years of corruption and illegal and democratic 
behavior, the murderer, Daniel Ortega, has consolidated his 
power and uprooted democracy in Nicaragua. Since the latest 
crisis began in April, the situation in Nicaragua has pretty 
much gone off the cliff, from what I understand. The Ortega 
regime has resorted to extreme and disproportionate force to 
attack protestors, many of them women. This includes gangs of 
pro-government Sandinista thugs used to terrorize and kill 
innocent people. Even Nicaraguan bishops were attacked 
recently.
    So far, approximately, my understanding is approximately 
300 people have been killed and anywhere from 1,000 to 1,500 or 
more injured. And we must not let this crisis create a trend in 
Latin America by allowing Nicaragua to follow the path of 
authoritarian governments like Cuba and Venezuela who continue 
to squander their resources and oppress their own people.
    Lastly, as a cosponsor of H.R. 981, I want to thank 
Chairman Cook for his leadership and for a holding markup for 
the resolution. I support that passage of that legislation. And 
I have been contacted by some folks back in my district who 
have family in Nicaragua and have been on the phone with them, 
you know, multiple times, sometimes daily over the week, you 
know, quite a lot, and religious folks in my district who 
support the folks who have family down there and have seen what 
is going on firsthand.
    And so my question would be initially, and again, having 
not had the benefit of having heard everything that you already 
said about this, but what is the best thing that our government 
can do in working with our folks on the ground there to protect 
both American citizens that are there, their families? What 
influence, if any, do we have with the Ortega government? What 
is happening that I can take back to my constituents to let 
them know that we are doing everything possible to help those 
folks who really need our help right now?
    Ms. Feinstein. Thank you, Congressman, for that question. 
Just to let you know in terms of what you can take back to your 
constituents with regard to what the U.S. Government is doing 
on behalf of the Nicaraguan people. Thanks to the generosity of 
this Congress and this committee in particular, we have been a 
longstanding presence in Nicaragua working side-by-side, 
shoulder to shoulder with civil society there, which is playing 
an absolutely critical role in getting out the narrative about 
what is going on, including the horrific atrocities that you 
have referenced in your testimony. And we think it is important 
that a light is shone on that for the people of Nicaragua--to 
take away from the distorted narrative that the government is 
putting forward, as well as to shine a light on it in the 
international community to document the human rights violations 
that are going on so that they can be prosecuted at some point 
in time.
    We are undertaking a series of interventions, as I said, 
related to human rights. Also, independent media, legal 
assistance to victims and their families who are being brutally 
attacked at this point in time, and also digital security as 
the government perpetrates a very systematic campaign to try to 
delegitimize civil society actors through malign information 
that is placed online through pulling down their accounts on 
Facebook, Twitter, et cetera. We are providing support to those 
actors as well. And I defer to my colleagues to speak to 
American citizens.
    Mr. Chabot. I would welcome any comments by the other 
gentlemen. Mr. Ambassador?
    Ambassador Kozak. Thank you. And I would just add, with 
respect to American citizens, I would advise your constituents, 
stay in close touch with the Embassy. There is a counselor 
warden system, so the Embassy is constantly trying to monitor, 
you know, what are the danger zones, what are the trip points 
and so on and warn people against that. So having that good 
communication. Also, there is like a phone tree that they set 
up, and you want to be sure that if somebody does get in 
trouble, that that gets back quickly to the Embassy.
    Yes, we have some influence with them. I think if they were 
rational actors, they would understand that messing with 
Americans would not be healthy, but, you know, they are not all 
rational actors. So it is something people should be very, very 
careful, pay very close attention to the warnings and the 
advice that the Embassy provides them.
    Mr. Chabot. Thank you. And, of course, some of it is, you 
know, there are American citizens who have family on the ground 
who are not American citizens, so it is not only the American 
citizens that I am concerned about or my constituents are, but 
it is the Venezuelans who are not necessarily citizens but have 
American connections. And being America, we care about not just 
Americans but others who are, you know, people who aren't 
causing the problems here, which is obviously people outside 
the Ortega government. Thank you very much.
    Thank you, Mr. Chairman. And thank you for letting me ask 
questions even though I am not on the committee. Thank you.
    Mr. Cook. Thank you very much.
    I am going to recognize Ileana Ros-Lehtinen for questions, 
comments, et cetera, et cetera.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you to excellent panelists.
    Ambassador, is it time we revisit Nicaragua's participation 
in CAFTA?
    And, Ambassador Trujillo, you were recently in Nicaragua 
where you met with Ortega. How will you ensure that Ortega 
meets the commitments made on the CEN dialogue, and please tell 
us more about the meeting and how it went.
    Ambassador Kozak.
    Ambassador Kozak. Well, I would say we should be looking 
at, you know, all the different points of pressure, but as I 
indicated earlier, on anything on the economic side, they are 
doing such a good job of harming themselves that, you know, 
they almost don't need any help from us. And you need to, you 
know, look beyond the Ortegas too as to what you want to see 
for the country and the future. But, again, good thought to 
take a look at that point of pressure as well as the many 
others that we have and see what we can do.
    Again, always in the role of we are the supporting players. 
We are trying to back the play of the people of Nicaragua 
themselves and not to have an agenda of our own. Thank you.
    Ms. Ros-Lehtinen. Ambassador Trujillo?
    Ambassador Trujillo. Thank you, Congresswoman. In my 
meeting, I think the U.S. message is that the violence must 
stop immediately. I think before there is any dialogue, before 
there is any conversation, you can't have a week in which 20, 
30, 40 people perish based on acts of violence perpetrated by 
the government. So our message is very clear that the violence 
must stop immediately.
    I think furthermore, there is a dialogue process, but the 
dialogue has to be kept in earnest. And what I mean by that is 
that people sit down, but there is no commitment to really 
advance an agenda. And in order for an agenda to advance that 
leads to a commitment to democracy for the government, there 
should be some sort of written game plan that is executed and 
which both parties commit to.
    So part of our conversation was, besides stopping the 
violence and committing to protect the citizens, which is a 
fundamental duty of government, there should also be a written 
game plan in which all the concern from all sides were 
addressed, both parties are bound by that agreement mediated by 
the church, and that agreement is further carried out, which 
was at first initially well received. Unfortunately, in the 
last 2\1/2\ weeks, we have not had a written response as to the 
agreement that would create the conditions for real earnest 
dialogue. And I think one thing that further deteriorated the 
dialogue is when you invite the church to be the mediators of 
the dialogue and then you proceed to attack and beat them, 
torture them, humiliate them, it makes it very difficult for 
them to continue to want to participate.
    Ms. Ros-Lehtinen. Thank you, Ambassador Trujillo, and keep 
encouraging the OAS to do the right thing in Nicaragua. They 
have acted on Venezuela, but very poor when it comes to the 
horrific attacks on democracy in Nicaragua. Their silence is 
deafening. Yes, sir.
    Ambassador Trujillo. Thank you, Congresswoman. And I think 
that is changed. June 30 we passed our first resolution to 
capture the space. And part of the problem at the OAS is if it 
is a difficult conversation, we always default to the path of 
least resistance, which is doing absolutely nothing. So just 
capturing the space was very important to have the conversation 
as to Nicaragua. Since then, we have had a report from the 
commission, the International Commission on Human Rights, which 
addressed and held the government responsible for the violation 
of human rights. We had a follow-up hearing yesterday as to all 
the violations in which the majority of the larger population 
countries in the Western Hemisphere opined condemning the 
government for the violations of human rights, which is a very 
important step for people to recognize that Ortega and Murillo 
are responsible for the crimes against humanity that are 
currently taking place.
    And our next step is to pass a resolution condemning the 
violence and calling for free, fair, and early elections. That 
is the next process that we are currently working on, but I 
think just creating a space in which the Nicaraguan people know 
that, not only the United States, but the international 
community is supporting their cause and is keeping account of 
the violators of human rights, and one day we will seek justice 
for all those people who violate human rights is a very, very 
important message to send, not only to the government, but a 
lot of the government actors we are still deciding which side 
to pick.
    Mr. Cook. Mrs. Torres, one more question.
    Mrs. Torres. Thank you so much for the opportunity to do 
the followup.
    On the Chinese investment in Nicaragua, specifically 
related to the canal that they had envisioned, and there was an 
agreement that was made, although I understand that in that 
agreement, there is no requirement to actually have identified 
funding for it. It might not be the Chinese Government, but 
there is a Chinese billionaire, people with a lot of money that 
are investing in this project. What are you seeing there?
    Ambassador Trujillo. Congresswoman, I personally, from the 
OAS perspective, have not seen it. I have heard the rumblings 
of a competing Panama Canal, but I haven't seen anything. 
Obviously, I was only there for less than 24 hours, so I didn't 
have the opportunity to see anything specifically related to 
that.
    Mrs. Torres. My concern again is because it would require a 
relocation of many villages and many people within the area 
that has been identified around the lakes and rivers that have 
been identified for the purpose of building this canal. You 
know, this is the time to take advantage of moving those people 
by force out of the way, right? Please continue to look out for 
those issues as we move forward.
    Thank you, Chairman, for the opportunity again.
    Mr. Cook. Thank you very much.
    I have a couple of quick questions, and I am going to 
apologize in advance for speaking up on the OAS, but I am very, 
very concerned about the influence of Venezuela on the OAS and 
some of the nations that are in close proximity to the 
Caribbean. In terms of the voting power, each one of them has 
one vote. And I think it is not a secret that some of the 
rebates for oil and things like that influence the voting 
patterns of certain states, which obviously affects how the OAS 
might vote on Venezuela but also Nicaragua. It becomes kind of 
a calculus problem in that each state has one vote, and I have 
always thought the OAS had a very, very strong influence and I 
see this influence being diluted by those things that are 
happening.
    Ambassador, would you like to comment on that or am I 
delusional?
    Ambassador Trujillo. Thank you, Chairman. I think that was 
the case for many, many years until recently. The last OAS 
General Assembly, the United States was able to lead a 
resolution on Venezuela that passed 19 to 4, with a few 
abstentions. This is the first time in recent history that we 
are able to advance a resolution that condemns the government 
and that doesn't recognize the elections, the sham elections 
that just took place in Venezuela. I thought that was an 
important turning point in the U.S.-OAS leadership in the 
organization, the ability of the organization to stay relevant 
and get things done.
    But I think, furthermore, looking forward, we have to 
create an alternative, not a financial alternative or a 
competing Petrocaribe program, but why is the U.S. a better 
alternative than China, than Russia, than Venezuela for the 
U.S. interests? And I think it is incumbent upon all sectors of 
the U.S. Government to really advocate on why our partnership 
is much more important to a lot of these countries than some of 
the partnerships that they have sought.
    To that end, we have tried to work with some of the other 
partners in creating energy alternatives, plugging them into 
the right people, whether it is OPEC, whether it is Energy, 
whether it is Treasury, and finding ways in which we can help 
advance their personal interests and help advance their lack of 
reliance or less reliance on some of these foreign actors.
    But it is a very challenging environment, and the most 
challenging thing is a country with 60,000 or 80,000 people has 
the same exact vote as the United States of America. The 
country that puts in tens of thousands of dollars has the same 
vote as the country who puts in tens of millions. It is a very 
challenging environment. Obviously, we are trying to overcome 
those challenges as best we can, but I think it is also 
important on Congress to stay attuned as to who some of these 
countries are, because they oftentimes come and they will vote 
one way in the OAS and they will come here to Congress and ask 
for unlimited resources and unlimited projects, and sometimes 
there is not enough coordination and not enough communication 
in which we all know that they have to help advance the U.S. 
taxpayer and the American interests.
    Mr. Cook. Thank you. The other thing I just wanted to 
throw, and it goes back to many, many years ago when you had a 
situation in the communist government in Poland, and there was 
an individual, a cardinal who went on to Rome. I think we all 
know the history, and I think he was the one that the communist 
regime at the time feared most for good reason.
    And I look at the role of the Catholic church in Nicaragua. 
I know it is a very, very strong influence. And I am just 
wondering, as a variable, I am not going to preach to the 
Ortegas, but I think when they turn against the Catholic 
church, strange things might happen.
    Any comment on that viewpoint? I say my prayers, I have to, 
I am in Congress, but I know a lot of people pray and so----
    Ambassador Trujillo. I think, Chairman, that was a turning 
point. At least in the OAS, the majority of the countries are 
Roman Catholic, predominantly Roman Catholic, and just the 
affinity toward the clergy in general and the government's lack 
of respect toward the clergy they invited into the dialogue 
really sent shockwaves across the organization. I think any 
time the government engages in violent acts against the clergy 
that is just trying to be a peaceful mediator for college 
students and people protesting for freedom and democracy, it is 
very, very difficult to overcome. And I think going forward, 
the credibility of the government as an institution is always 
going to be second to that of the church, especially in 
Nicaragua, and it is going to be very, very difficult for them 
to navigate that water.
    Mr. Cook. Thank you.
    First of all, I want to thank our witnesses for speaking 
today. I want to thank the members. You know, they are not here 
anymore, they are tired of listening to me, but we actually had 
a great turnout, considering there is multiple meetings and 
things going on, because they know how important this is.
    And to our two visitors that have gone through so much, 
once again, I underscore your courage for being here, your 
inspirations. This is a tough, tough, tough issue, but 
obviously, I think you see the bipartisan interest in this. We 
are all concerned. And not just from--but the humanitarian 
aspects of it and what goes on, and you have to live with it 
all the time.
    So great panel. I thought we had a great discussion, and 
thank you for being here.
    So I have to do, pursuant to committee rule 7, the members 
of the subcommittee will be permitted to submit written 
statements to be included in the official hearing record. 
Without objection, the hearing record will remain open for 5 
business days to allow statements, questions, extraneous 
materials for the record subject to the length limitation in 
the rules.
    There being no further business, the subcommittee is 
adjourned.
    Now where do I go?
    Thank you again.
    We are not done yet for anybody that wants to hang around.
    [Hearing adjourned.]
    Mr. Cook. The subcommittee will come to order.
    Pursuant to notice, we meet to mark up House Resolution 
981, a bipartisan measure, condemning the violence committed by 
the Government of Nicaragua against its own citizens.
    Without objection, the resolution is considered read and 
open for amendment at any point, and all members may have 5 
days to submit statements and materials for the record.
    [The information referred to follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         

    Mr. Cook. I now recognize myself to speak on this measure.
    We have just concluded a subcommittee hearing on the crisis 
in Nicaragua with administration officials, and we meet now to 
consider House Resolution 981 to publicly condemn the Ortega 
regime's violent oppression and human rights violations against 
the Nicaraguan people.
    I am an original cosponsor of this resolution, and I want 
to applaud the leadership of Chairman Emeritus Ros-Lehtinen and 
the bipartisan efforts of this subcommittee to move this 
resolution forward.
    I have heard from many Nicaraguans in the United States who 
are concerned about the crisis in Nicaragua and the nearly 300 
people who have died since the unrest broke out in April.
    The continued violence and oppression by the Ortega regime 
is reprehensible. Unfortunately, Daniel Ortega and his wife, 
Rosario Murillo, have chosen to inflict greater oppression 
rather than work through dialogue to achieve a peaceful 
resolution to this crisis.
    On Sunday, 38 people were killed, making it the deadliest 
day in Nicaragua since the protests began. The United States 
will not stand idly by while the Ortega regime continues to 
oppress its people with impunity.
    This resolution condemns the Ortega regime's violence, 
supports the Nicaraguan people in their pursuit of democracy, 
and calls for more U.S. sanctions. I also believe the United 
States should work more closely with the other democratic 
partners in the Organization of American States, European 
Union, Canada, and the Lima Group to work toward a peaceful 
resolution of the crisis.
    With that, I will now recognize the ranking member for his 
comments on the resolution.
    Mr. Sires. Mr. Chairman, I support this resolution, and I 
will be speaking more on this resolution when we have the full 
committee.
    Mr. Cook. Thank you, sir.
    Do any other members seek recognition to speak on the 
resolution?
    Yes, sir.
    Mr. Castro. Thank you, Chairman.
    I support the resolution condemning the violence and 
persecution and intimidation by the Ortega government in 
Nicaragua. Let it be known to all that the United States will 
stand up to left wing and right wing dictators who oppress 
their people, deny people human rights, and stifle democracy. 
And I believe this resolution is a condemnation of those 
actions by the Ortega government.
    I yield back.
    Mr. Cook. Thank you, sir.
    Any other members wanting to speak?
    Are there any amendments?
    Hearing no further recognition or request for recognition, 
the chair moves the subcommittee favorably report the 
resolution to the full committee.
    All those in favor, say aye.
    All opposed, say no.
    In the opinion of the Chair, the ayes have it. The motion 
is approved and House Resolution 981 is reported favorably to 
the full committee.
    With that, no more business, this meeting is now adjourned.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
	 
[Note: No responses were received from the Honorable Carlos Trujillo 
prior to printing.]

                                 [all]
</pre></body></html>
